ES, IG-98-017, Kennedy Space Center's Recycling Efforts
KENNEDY SPACE CENTER'S
RECYCLING EFFORTS
IG-98-017
Executive Summary
Background
Executive Order 12873, Federal Acquisition, Recycling and
Waste Prevention, issued October 1993, requires the Federal Government
to make more efficient use of natural resources by maximizing recycling and
waste prevention activities.  The Executive Order also requires agencies to
develop an affirmative procurement program to purchase recycled or
environmentally preferable products.  In addition, NASA has made recycling a
major component of its overall environmental strategy.
Objectives
The audit objective was to determine whether Kennedy Space Center (KSC) is maximizing recycling efforts.  Our goal was to answer the following questions:
Is KSC meeting Executive Order 12873 requirements for recycling?
Is KSC properly collecting and accounting for revenues generated
from recycling efforts?
Results of Audit
To monitor Agency progress in accomplishing recycling goals
and objectives, NASA policy requires that certain reports be prepared,
including an annual progress report as prescribed by Executive Order 12873.
However, in many cases, KSC was not collecting and reporting accurate
recycling data.  The lack of consistency and the inaccurate data did not
allow for reasonable measurements of program accomplishments.
In addition, KSC has no collection procedures to retain proceeds from its
recycling program.  Such proceeds can be used to benefit the existing
recycling program or other Center environmental efforts.  As a result,
recycling revenue ($141,431) was not available for KSC to fund additional
recycling projects.
Recommendations
This report contains 10 recommendations to assist KSC in
complying with Executive Order and Agency requirements and in collecting
additional revenues that can be used to further promote the Center's
recycling program.
Management's Response
KSC concurred with all the recommendations and will establish procedures to improve accountability over recycling revenue.  We consider planned actions responsive to the intent of the recommendations.